s.
APPENDIX D

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-3198

Lee Goston
Plaintiff - Appellant
v.
Dexter Payne, Director, Arkansas Division of Correction (originally named as Gary Griffin)
Defendant - Appellee
Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(4:20-cv-00772-DPM)
JUDGMENT

Before KELLY, ERICKSON, and GRASZ, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied.
Appellant’s motions for leave to proceed on appeal in forma pauperis are denied as moot.
The appeal is dismissed.
February 04, 2021

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

36

| APPENDIX Cj

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
LEE O GOSTON
ADC #105879
v.

PETITIONER
No. 4:20-cv-772-DPM

DEXTER PAYNE, Director,
Arkansas Division of Correction

RESPONDENT

JUDGMENT
Goston's petition is dismissed with prejudice.

D.P. Marshall Jr.
United States District Judge
3/

22

%o 3.0

APPE> C

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
LEE O GOSTON
ADC #105879

PETITIONER
No. 4:20-cv-772-DPM

v.

DEXTER PAYNE, Director,
Arkansas Division of Correction

RESPONDENT

ORDER
On de novo review, the Court adopts Magistrate Judge Deere's
recommendation, Doc. 8, and overrules Goston's objections, Doc. 13.
FED. R. ClV. P. 72(b)(3). Goston says he is entitled to equitable tolling
because he has been incompetent since the time of his conviction and
could not timely file his habeas petition. As Magistrate Judge Deere
noted, though, Goston earned his GED while incarcerated in 1997.
Doc. 6-1 at 1. He petitioned for clemency on his own behalf in 2012.
Doc. 6-2. And during his time in the ADC, he's filed several lawsuits
in this Court, including complaints about the distribution of his father's
estate, excessive force, and inadequate nutrition.

Goston v. Goston,

4:05-cv-177-BRW; Goston v. Jones, 5:05-cv-355-JLH; Goston v. Norris,
Goston v. Clark, 5:07-cv-68-SWW.

The record

doesn't support Goston's claim that he's been

continuously

5:05-cv-340-GH;

incompetent for the last twenty-four years.
23

A?P. C

Goston's petition is time-barred; and equitable tolling doesn't
• »*.*

apply in his case.
prejudice.

His petition will therefore be dismissed with

No certificate of appealability will issue.

§ 2253(c)(l)-(2). Motion to dismiss, Doc. 9, denied as moot.
So Ordered.
D.P. Marshall Jr.
United States District Judge
3( Asopnt WP

\
24 i

28 U.S.C.

AP.PX
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
LEE O GOSTON
ADC #105879
v.

PETITIONER
No. 4:20-cv-772-DPM

DEXTER PAYNE, Director,
Arkansas Division of Correction

RESPONDENT

ORDER
Motion for leave to proceed in forma pauperis on appeal, Doc. 19,
denied.

The Court declined to issue a certificate of appealability.

Doc. 14 at 2.
So Ordered.
D.P. Marshall Jr.
United States District Judge
20 October 2020

25

Case 4:20-cv-00772-DPM Document 8 Filed 08/03/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
CENTRAL DIVISION
PETITIONER

LEE O. GOSTON
ADC #105879
CASE NO. 4:20-CV-772-DPM-BD
DEXTER PAYNE, Director,
Arkansas Division of Correction

RESPONDENT

RECOMMENDED DISPOSITION
I.

Procedures for Filing Objections:
This Recommendation for dismissal has been sent to Chief Judge D.P. Marshall Jr.
Any party may file objections if they disagree with the findings or conclusions set out in
the Recommendation. Objections should be specific and should include the factual or
legal basis for the objection.
To be considered, objections must be filed within 14 days. If parties do not file
objections, they risk waiving the right to appeal questions of fact. And, if no objections
are filed, Judge Marshall can adopt this Recommendation without independently

reviewing the record.
II.

Background:
On November 9, 1995, a Pulaski County, Arkansas jury convicted petitioner Lee
O. Goston of aggravated robbery and theft of property. (Doc. No. 6-1) Mr. Goston was
sentenced as a habitual offender to life plus thirty years in the Arkansas Department of
Correction. Id. Mr. Goston, through counsel, appealed to the Arkansas Supreme Court,
claiming that he was denied his constitutional right to a speedy trial. Goston v. State, 326

Case 4:20-cv-00772-DPM Document 8 Filed 08/03/20 Page 2 of 5

Ark. 106, 930 S.W.2d 332 (1996). On September 30, 1996, the Arkansas Supreme Court
affirmed Mr. Goston’s conviction. Id.
Mr. Goston filed the instant petition for federal habeas corpus relief on June 22,
2020. (Doc. No. 2). In this petition, he claims that his counsel was ineffective for failing
to appeal the issue of mental incompetency. He further claims that the trial court erred by
failing to order a mental evaluation.
Director Payne responded to the petition. (Doc. No. 6) He contends that Mr.
Goston’s petition is barred by the applicable statute of limitations or, alternatively, is
procedurally defaulted.
III.

Discussion;
A. Statute ofLimitations
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), which
became effective on April 24, 1996, establishes a one-year limitations period for a state
prisoner to file a federal habeas corpus petition. 28 U.S.C. § 2244(d)(1)(A). For most
habeas cases, the limitations period begins to run from the latter of, “the date on which
the judgment became final by the conclusion of direct review or the expiration of the time
limit for seeking such review.” Id.
The Arkansas Supreme Court decided Mr. Goston’s direct appeal on September
30, 1996, and his time to seek review in the United States Supreme Court expired ninety
days later, on December 29, 1996. U.S. SUP. Ct. R. 13.1. Mr. Goston did not seek review
in the United States Supreme Court. The one-year federal statute of limitations began to
run for Mr. Goston, therefore, on December 30, 1996, the day after thie time expired for
2

Case 4:20-cv-00772-DPM Document 8 Filed 08/03/20 Page 3 of 5

seeking review of the decision handed down by the Arkansas Supreme Court. He had
until December 30, 1997 to file a federal habeas corpus petition. See Gonzalez v. Thaler,
565 U.S. 134, 137 (2012) (the judgement becomes “final” on the date that the time for
seeking review expires).
Mr. Goston did not file this federal petition until June 22, 2020, over 22 years after
the statute of limitations had expired. Unless the Court determines that Mr. Goston is
entitled to statutory or equitable tolling, this § 2254 action is untimely.
B. Tolling
The AEDPA provides for tolling during the pendency of a “properly filed
application for State post-conviction or other collateral review.” 28 U.S.C. § 2244(d)(2).
Because Mr. Goston did not file a state petition for post-conviction relief, he is not
entitled to statutory tolling.
The limitations period may be equitably tolled if Mr. Goston is able to show that
he pursued his rights diligently and that some extraordinary circumstances stood in his
way to prevent a timely filing. Muhammad v. United States, 735 F.3d 812, 815 (8th Cir.
2013) (quoting Holland v. Florida, 560 U.S. 631, 649 (2010)). “The burden of
demonstrating grounds warranting equitable tolling rests with the petitioner.” Earl v.
Fabian, 556 F.3d 717, 722 (8th Cir. 2009) (citing Pace v. DiGuglielmo, 544 U.S. 408,
418(2005)).
Here, Mr. Goston argues that his delinquent filing should be excused because his
counsel did not inform him of his post-conviction options. Typically, a petitioner’s pro se
status, lack of legal knowledge or legal resources, and confusion about, or miscalculation
3

Case 4:20-cv-00772-DPM Document 8 Filed 08/03/20 Page 4 of 5

of, the limitations period are not deemed extraordinary circumstances that warrant
equitable tolling. See Johnson v. Hobbs, 678 F.3d 607, 611 (8th Cir. 2012) (holding that
petitioner’s pro se status or lack of understanding of post-conviction rules does not justify
equitable tolling); see also Shoemate v. Norris, 390 F.3d 595, 598 (8th Cir. 2004). Mr.
Goston is not entitled to equitable tolling based on his lack of legal knowledge.
Mr. Goston further argues that he only “recently became competent enough to file
motions and petitions to the courts [himself] after being lost mentally and serving 24
years in prison.” (Doc. No. 2 at p. 13) “A physical or mental impairment may support
equitable tolling, [but] whether it will do so depends on its degree and duration.” Martin
v. Fayram, 849 F.3d 691, 698 (8th Cir. 2017) (internal quotations omitted). To be entitled
to equitable tolling on grounds of mental impairment, Mr. Goston must “allege[] that his
disability was so severe that it precluded him from filing court documents or seeking the
assistance of others to do so.” Id.
Mr. Goston has failed to point to any such facts or circumstances. To the contrary,
the record indicates that, far from being mentally incompetent, Mr. Goston achieved his
General Educational Development certificate on December 1, 1997. (Doc. No. 6-2)
Furthermore, Mr. Goston does not indicate that he took any action to diligently
pursue his federal habeas claims during the applicable limitations period, December 30,
1996 to December 30, 1997. See Gordon v. Arkansas, 823 F.3d 1188, 1195-96 (8th Cir.
2016) (indicating that claims of mental incompetency do not excuse petitioners from the
reasonable diligence requirement). Mr. Goston’s federal habeas petition is untimely; he

4

Case 4:20-cv-00772-DPM Document 8 Filed 08/03/20 Page 5 of 5

provides no compelling basis for tolling the statute of limitations; and he does not allege
actual innocence. Accordingly, his petition for habeas relief should be denied. i
IV.

Certificate of Appealability:
When entering a final order adverse to a petitioner, the Court must issue or deny a
certificate of appealability. Rule 11 of the Rules Governing Section 2254 Cases in the
United States District Courts. The Court can issue a certificate of appealability only if
Mr. Goston has made a substantial showing that he was denied a constitutional right. 28
U.S.C. § 2253(c)(l)-(2). In this case, Mr. Goston has not provided a basis for the Court to
issue a certificate of appealability. Accordingly, a certificate of appealability should be
denied.

V.

Conclusion:
Mr. Goston’s petition is time barred. His petition for writ of habeas corpus (Doc.
No. 2) should, therefore, be DISMISSED with prejudice. The Court further recommends
that no certificate of appealability be issued.
DATED this 3rd day of August, 2020.

UNITED STATES MAGISTRATE JUDGE

i

Because Mr. Goston’s petition is barred by the applicable statute of limitations, it is
unnecessary to address the issue of procedural default.
5

